No.
IN THE

Supreme Court of tf>e fHntteb States
VINCENT E. BOYD
Petitioner,
v.

DYLON RADTKE,
Respondent.

PROOF OF SERVICE
\i\nrffX
_____ , do swear or declare that on this date, V^hroAnj
I,
2021, as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Wisconsin Department of Justice,
Attorney General, Brad D. Schimel,
P.O. Box 7857, Madison, WI 53707-7857.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

fLWuAru

_____ , 2021

RECEIV|^tm)
vii

FEB 2 3 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

